      Date:              June 18,1999

      To:

'i'   Via:

      From:

      Re:

                 as.



      Background:

                             s office received
                               that a fraudulent grant
                                NSF in 1994. Accordin
                                at the signature of                                as forged on
      the proposal. The grant proposal was declined by NSF.


      Findings

                       id not sign her name as co-PI on the grant proposal and she did not remember
                                             to sign her name.
                                            stitutional grant for        and had no knowledge of a

      3. In 1994,        provided separate cost estimates for five separate areas as possible
         grant projects. The top priority &ea as listed i m e m o dated April 1, 1994,
         the              was selected for use in the proposal.

    Thou h the 1994 grant is written to renovate the entire               and- a
eht*                         budget that was submitted along with the proposal seems to
   reflect only the cost for the            and             It appears that, had the grant
   been awarded, it would not have been possible to complete the project as described in the
   text of the proposal and based upon the provided budget.

      The 1994 grant was declined and the 1996 grant proposal was never submitted to NSF.
      Based on the above information, no significant findings of fraud, waste or abuse of
      federal h d s was found. The case is closed.
